U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




           U.S. Census Bureau


   FY 2009 FISMA Assessment
             of the Field Data
Collection Automation System
                      (CEN22)
                Final Report No. OAE-19728
                             November 2009




                  Office of Audit and Evaluation
                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                                   Office of Inspector General
                                                    Washington. D.C. 20230




 'ovember 20, 2009


MEMORANDUM FOR: Dr. Robert M. Groves
                Director
                U.S. Census Bureau

                            Thomas L. Mesenbourg Jr.
                            Deputy Director and Chief Operating Officer
                            U.S. Census Bureau



FROM:                       Allen Crawley
                            Assistant Inspector General for Systems Acquisition and IT
                            Security


SUBJECT:                    U.S. Census Bureau
                            FY 2009 FISMA Assessmen/ of/he Field Da/a Collec/ion
                            A u/oma/ion System (CEN22)
                            Final Report No. OAE-19728


This is our report on the results of our Federal Information Security Management Act
(FISMA) review ofthe bureau's certification and accreditation of the Field Data
Collection Automation (FDCA) system.

We found that the authorizing official incorrectly detem1ined that the risks identified by
the certification agent were low at the time the authorization to operate was granted.
Given that FDCA is mission critical and was needed to support decennial field operations
that could not be delayed, the authorizing official should have extended the April 17,
2009, interim authorization to operate, rather than granting a full authorization. This
would have allowed the system to operate under specific tem1S and conditions, while
acknowledging greater risk to the agency for a specified period of time. We recognize the
critical need for FDCA to continue to operate and provide support to decennial census
operations, and thus have made recommendations to provide increased assurance that the
system and its information will be adequately protected for the duration of the decennial
census.

At the time the system was authorized, progress in correcting numerous and signi ficant
vulnerabilities was minimal. The certification agent noted that security features providing
layers of security redundancy could compensate for numerous vulnerabilities; however,
our assessment of the compensating security features determined they were in fact not
effectively protecting the system.

Our review also found that FDCA’s system security plans and security control
assessments were generally adequate, but need improvement. We also found that the
bureau has not established, implemented, and assessed secure configuration settings for
all IT products that are part of FDCA.

In its response to our draft report, Census concurred with all our findings and all but one
of our recommendations; however, we find Census’ planned action to address this
recommendation is reasonable and responsive. Census’s response is summarized in the
appropriate sections of the report and is included in its entirety as appendix A.

We request that you provide us, within 60 calendar days of the date of this report, with an
action plan describing the actions you have taken or plan to take in response to our
recommendations. As required by FISMA, a plan of action and milestones should be used
to communicate the plan.

We appreciate the cooperation and courtesies extended to us by your staff during our
evaluation. If you would like to discuss any of the issues raised in this report, please call
me at (202) 482-1855.


Attachment

cc:   Suzanne Hilding, Chief Information Officer, U.S. Department of Commerce
      Arnold A. Jackson, associate director for decennial census, U.S. Census Bureau
      Brian E McGrath, associate director for information technology and chief
          information officer, U.S. Census Bureau
      Patricia McGuire, program manager for field data collection automation program
          management office, U.S. Census Bureau
      Timothy P. Ruland, chief, information technology office, U.S. Census Bureau
      Adam C. Miller, Census audit liaison
                                  Report In Brief
                                       U.S. Department of Commerce, Office of Inspector General
                                                            November 2009

Why We Did This Review U.S. Census Bureau
The Federal Information
Security Management Act of           FY 2009 FISMA Assessment of the Field Data Collection
2002 (FISMA) requires federal
agencies to identify and provide
                                     Automation System (OAE-19728)
security protection of informa-
tion collected or maintained by      What We Found
it or on its behalf. Inspectors
general are required to annually     We evaluated certification and accreditation activities for the Field Data Collection
evaluate agencies’ information       Automation (FDCA) system as part of our FY 2009 reporting responsibilities under the
security programs and practices.     Federal Information Security Management Act (FISMA).
Such evaluations must include
testing of a representative subset   On April 17, 2009, FDCA was granted an interim authorization to operate, allowing
of systems and an assessment,        the system to operate under specific terms and conditions while vulnerabilities were
based on that testing, of the        assessed and corrected. On June 17, 2009, the authorizing official granted full operation
entity’s compliance with FISMA       of FDCA, even though at the time Census had made only minimal progress in correct-
and applicable requirements.         ing system weaknesses. We found that the authorizing official should have extended the
                                     interim authorization to operate rather than issuing a full authorization.
This review covers our evalu-
ation of the Census Bureau’s         Our review also found that FDCA’s system security plans and security control assess-
FDCA system, which is one of a       ments were generally adequate, but need improvement. The bureau has not established,
sample of systems we assesed in      implemented, and assessed secure configuration settings for all IT products that are part
FY 2009.                             of FDCA.




Background
FDCA is a contractor-designed
system used by Census field          What We Recommend
workers to collect, process,
and secure information for the
                                     We recognize the need for FDCA to continue to operate and provide support to decen-
decennial census. The FDCA
                                     nial census operations, so our recommendations are intended to provide increased assur-
system provides essential IT
                                     ance that the system and its information will be adequately protected for the duration of
support for census field opera-
                                     the decennial census.
tions.
                                     Census agreed with our findings and all but one of our recommendations. It partially
C&A is a process by which
                                   concurred with this recommendation and described a reasonable and responsive alterna-
security controls for IT sys-
                                   tive corrective action.
tems are assessed to determine
their overall effectiveness.
Understanding the remaining
vulnerabilities identified during
the assessment is essential in
determining the risk to the orga-
nization’s operations and assets,
to individuals, to other organiza-
tions, and to the nation resulting
from the use of the system.
                        OIG FY 2009 FISMA Assessment

Listing of Abbreviated Terms and Acronyms

C&A         certification and accreditation
CIS         Center for Internet Security
CM          configuration management
DBMS        database management system


DPC         data processing center
FDCA        Field Data Collection Automation
FISMA       Federal Information Security Management Act of 2002
FOS         field operation supervisors
HHC         hand-held computers


IT          information technology
LCO         Local Census Office
NIST SP     National Institute of Standards and Technology Special Publication
OIG         Office of Inspector General
POA&M       plan of action and milestones
SA          system administrator
SAR         security assessment report


SSP         system security plan




                                     Page 1
                                 OIG FY 2009 FISMA Assessment

Synopsis of Findings

  •   System security plans were generally adequate, but some minor improvements are
      needed.

  •   Census has not established, implemented, and assessed secure configuration settings
      for all IT products.

  •   Security control assessments were generally adequate, but improvements are needed.

  •   OIG control assessment found vulnerabilities requiring remediation.

  •   Overstatement of compensating security features and downplaying numerous
      vulnerabilities led to an ill-advised and inappropriate authorization decision.

Conclusion

We concluded that the decisions to recommend and grant an authorization to operate were
inappropriate. But given the field data collection automation (FDCA) system’s requirement to
support decennial field operations on a fixed schedule, the authorizing official should have
extended the April 17, 2009, interim authorization to operate.

The certification agent’s recommendation to grant an authorization to operate was flawed
because the progress in correcting numerous and significant vulnerabilities. In general, the
certification agent did comprehensively assess security controls and identify numerous high-
risk vulnerabilities.

                                  The agent noted that security features providing layers of
security redundancy could compensate for numerous vulnerabilities; however, our
assessment of the compensating security features determined they were in fact not effectively
protecting the system. The agent cited mission criticality as a factor in the recommendation.
However, National Institute of Standards and Technology Special Publication (NIST SP 800-
37) states that if the authorizing official deems that the risk is unacceptable, but there is an
overarching mission necessity to place the information system into operation, an interim
authorization to operate may be issued. An interim authorization provides a limited
authorization to operate the information system under specific terms and conditions and
acknowledges greater risk to the agency for a specified period of time.

The authorizing official incorrectly determined that the risks identified by the certification
agent were low, and inappropriately granted the authorization to operate. Information
concerning the high-risk vulnerabilities identified during the certification assessment, the
compensating security features, and the progress made on remediating vulnerabilities were
provided to the authorizing official. At the exit conference, the authorization official indicated
he believed the decision to grant the June 17, 2009, authorization to operate was his only
option to allow FDCA to remain in operation. However, as discussed previously, the interim
authorization should have been extended.




                                              Page 2
                                   OIG FY 2009 FISMA Assessment

Summary of Census Response

In its response to our draft report, Census concurred with all of our findings and all but one of our
recommendations. It partially concurred with this recommendation and described alternative
corrective action. Census also identified actions it will take to address our other findings and
recommendations.

OIG Comments

After reviewing Census’s planned action to address the recommendation it partially concurred
with, we conclude that it is reasonable and responsive to the recommendation.

We address specific elements of Census’s response in the applicable sections of the report and
include the full response as appendix A.




                                               Page 3
                                OIG FY 2009 FISMA Assessment

Introduction
The FDCA system provides essential IT support for census field operations. The bureau is
using this contractor-developed system to collect, process, and secure information for the
decennial census.

Census has categorized FDCA as a                  system, which means that a security
breach could have a              effect on organizational operations, organizational
assets, or individuals.

The OIG previously evaluated the FY 2008 dress rehearsal certification and May 30, 2007,
accreditation of this system. In a report issued September 29, 2008, we concluded that:

 •    Census needed to improve security control assessments to assure that controls are
      implemented correctly, operating as intended, and meeting the security requirements
      for the system; and
 •    the authorizing official had not been provided the necessary information to make a
      credible, risk-based accreditation decision.

To meet the FY 2009 Federal Information Security Management Act (FISMA) reporting
requirements, we evaluated the Census Bureau certification and accreditation (C&A) for the
FDCA system (CEN22). For a complete outline of our objectives, scope, and methodology,
see appendix B. FDCA is a critical system supporting the decennial address canvassing field
operation. This evaluation addresses FDCA’s C&A completed on June 17, 2009.

Certification & Accreditation Timeline

From May 2007 to June 2009, FDCA underwent a phased C&A process to permit operating
the portions of the system necessary to prepare for and conduct decennial census activities,
even though the development of the full FDCA system was incomplete. The list below
provides a chronology of C&A activities during this time period.

 •    May 30, 2007 – Authorization to operate granted to support decennial census dress
      rehearsal.

 •    January 2, 2008 – Authorization to operate granted to include the operation of a new
      data processing center 2 (DPC2) until September 30, 2009.

 •    As a result of changing scope of the FDCA contract, many architectural changes
      mandated by Census, and the addition of new functionality, it became necessary to
      recertify and reaccredit the entire system.

 •    October 9, 2008 – Authorization to operate granted until January 2009 to continue
      system development and move into the production phase for address canvassing
      activities. DPC2 was not included in this authorization.
        o Certification assessments were incomplete.
        o Fifty-seven vulnerabilities were recorded on the system plan of action and
              milestones (POA&M).

 •    February 20, 2009 – Certification assessments were reported as completed.

 •    April 3, 2009 – Authorization granted to operate DPC2 until April 17, 2009, to support
      address canvassing begun on March 30, 2009.


                                            Page 4
                             OIG FY 2009 FISMA Assessment
      o   The certification status and recommendation memo acknowledges that
          certification assessments reported as complete on February 20, 2009, actually
          have not been completed and are still underway. Incomplete assessments
          include DPC2 components.

•   April 17, 2009 – Interim authorization to operate granted until June 17, 2009, for
    continuation of address canvassing activities.
      o Although certification tests are completed, the Information Technology Security
           Office is still assessing the information obtained from testing.

•   April 22, 2009 – Certification status memo explains that certification assessments have
    been completed.
      o Approximately 1,100 vulnerabilities are acknowledged; this number is considered
           “very high” by the certification agent.
      o An approval to operate (non-interim) will not be granted until the vulnerabilities
           and the lack of sound documentation have been addressed.

•   June 17, 2009 – Authorization to operate all aspects of the FDCA system is granted.
      o The authorizing official explains that residual risks to the system are low.
      o Authorization will expire June 17, 2012.




                                         Page 5
                                 OIG FY 2009 FISMA Assessment
Findings and Recommendations

 1. System Security Plans Were Generally Adequate, but Some Minor
    Improvements Are Needed

   •   The initial security plan was approved at the conclusion of the C&A initiation phase on
       January 13, 2008. The plan was updated June 5, 2009, and provided to the authorizing
       official. Both plans were generally adequate. Our evaluation found that both plans
       include
          o system descriptions that provide a clear overview of the system architecture and
               functionality;
          o applicable security control enhancements and organization-defined parameters
               necessary for tailoring security controls;
          o adequate descriptions of planned portions of security controls; and
          o descriptions of how security controls are implemented across the diverse
               components included in the system accreditation boundary.

   •   However, both plans include minor deficiencies that need to be corrected (see table 1):
        o The initial security plan had minor deficiencies that impacted the assessment of
           two security control enhancements during the certification.
        o The updated security plan provided to the authorizing official has minor
           deficiencies in security control descriptions. The deficiencies may impact the
           quality of future continuous monitoring assessments.

 Recommendation

 1.1 Census should ensure that security plan deficiencies in table 1 are corrected.



Census Response

Census concurred with this finding and our recommendation.




                                             Page 6
                              OIG FY 2009 FISMA Assessment

2. Census Has Not Established, Implemented, and Assessed Secure
   Configuration Settings for All IT Products
Background: Our FY 2008 report on FDCA, FY 2008 FISMA Assessment of Field Data
Collection Automation System (CEN22), found that “secure configuration settings were
defined and assessed for some IT products, but improvements are needed.”

We recommended that “Census should ensure that secure configuration settings are defined,
implemented, and assessed for all IT products in the system accreditation boundary in
accordance with NIST SP 800-70, Security Configuration Checklists Program for IT
Products.”

In response to our report, Census provided an action plan that included a POA&M item to
implement the recommendation by May 29, 2009. We concurred with the action plan.

 •   Census did not follow its action plan to fully implement secure configuration settings.
      o FDCA now has secure configuration settings established for fewer IT products
          than in the previous year.
             Our FY 2008 evaluation of FDCA found secure configuration settings were
                established for 10 out of 13 IT products.
             Currently, only the following 8 of 47 IT products have adequately
                established secure configuration settings.
                   •
                   •
                   •
                   •
                   •
                   •
                   •
                   •
             Significant examples of the 39 IT products that did not have established
                settings are
                   •

                   •


                   •
                   •
                   •
                   •
                   •
                The FDCA system changed significantly since the May 30, 2007,
                 authorization to operate. Therefore, the established secure configuration
                 settings were no longer accurate, resulting in fewer established settings. In
                 addition, many more IT products were added to the system, resulting in the
                 change from 13 to 47 total IT products.
                The security assessment report (SAR) and POA&M fully informed the
                 authorizing official concerning the lack of secure configuration settings.




                                          Page 7
                                OIG FY 2009 FISMA Assessment

   •   Secure configuration settings were assessed for seven of the eight IT products that had
       adequate secure configuration settings established. However, the secure configuration
       settings for                     were not assessed because the certification team did
       not consider the settings documented sufficiently to perform an assessment.
         o However, the secure configuration settings for this product were identified,
              necessary deviations were documented, and justifications for deviations were
              included. Therefore, these secure configuration settings were established enough
              to assess, and they should have been assessed.

 Recommendation

 2.1 Census should ensure that secure configuration settings are established, implemented,
     and assessed for all IT products in the system accreditation boundary in accordance with
     NIST SP 800-70, Security Configuration Checklists Program for IT Products.



Census Response

Census concurred with this finding and our recommendation.




                                            Page 8
                               OIG FY 2009 FISMA Assessment

3. Security Control Assessments Were Generally Adequate, but
   Improvements Are Needed
 •   Security control assessment results were generally supported by adequate evidence.

 •   Vulnerabilities identified during assessments were reported to the authorizing official via
     the SAR and the POA&M.

 •   Assessment procedures were generally tailored to the system specific implementation
     of security controls.

 •   Security control assessments included most IT products that implement security
     controls.
       o However, assessments were not performed on a representative set of some
           components even though the certification team was aware that these
           assessments were lacking:
                                        at Local Census Offices (LCOs); this issue was
                 reported in the SAR.
              

                                        were not included in all assessments for the
                 following controls because assessment scanning did not include them.
                 However, it is important to note that these assessments were performed for
                 similarly configured non-production                         POA&M item
                 1284 addresses this issue.
                   •
                   •
                   •
                   •
                   •
                   •
                   •
                   •
                   •
                   •
                   •
                   •
                   •

 •   Results for 34 of the 182 security control assessments we evaluated were not adequate
     (see table 2 for examples).

 •   No assessments were performed to determine if the                        was
     implemented on the network switches and firewalls that rely on
                                                                               .
       o   The FDCA switches and firewalls rely on              servers to implement
           requirements for the following security controls.
             
             
             
             
             
             


                                            Page 9
                                 OIG FY 2009 FISMA Assessment
               
               
         o   However,            was not implemented on one of the switches or on the web
             console interface for two firewalls.

   •   Some security control assessment evidence collected during security certification was
       not collected by an independent assessor.
         o In late February 2009, Census determined that some security control
             assessments were incomplete or inadequate.
         o To correct missing and inadequate assessments, Census requested that the
             FDCA system administration staff produce and deliver evidence such as
             screenshots, audit logs, and configurations for 21 of 47 system components.
                 The collection of evidence was not observed by an independent assessor,
                    such as a member of the certification team.
         o However, it is unlikely that the integrity of the evidence was compromised during
             this certification because
                 the evidence clearly depicted numerous system vulnerabilities, and
                 the FDCA configuration management process prohibits even minor
                    changes without approval of one or more change control oversight groups,
                    thus reducing the likelihood that temporary configuration changes were
                    made to produce more favorable evidence.

 Recommendations

 Census should ensure that

 3.1 security control assessments for certification are completed before making certification
     recommendations; and
 3.2 the collection of evidence to support certification assessments is performed by an
     independent assessor.



Census Response

Census concurred with this finding and our recommendations.




                                            Page 10
                                 OIG FY 2009 FISMA Assessment

 4. OIG Control Assessment Found Vulnerabilities Requiring
    Remediation
 As part of OIG’s FY 2009 FISMA evaluation of the FDCA system, we selected and assessed
 system components and security controls that would allow us to determine the effectiveness
 of security features that the certification agent noted provide layers of security redundancy.

   •   We found the following weaknesses (see table 3).
        o
              
              
              

         o
               

               

               

         o
               
               
         o
               
               
         o
               

 Recommendation

 4.1 Census should ensure the vulnerabilities we identified in table 3 are added to the
     system’s POA&M and either remediated or accepted by the authorizing official.



Census Response

Census concurred with this finding and our recommendation.




                                            Page 11
                                OIG FY 2009 FISMA Assessment

5. Overstating Compensating Security Features and Downplaying
   Numerous Vulnerabilities Led to an Ill-Advised and Inappropriate
   Authorization Decision
Background: The certification recommendation of June 17, 2009, acknowledges numerous
and significant vulnerabilities. The SAR includes the following:

  •   261 high-impact vulnerabilities represented by 16 distinct weaknesses affecting
      numerous IT products (for example, the occurrence of the same weakness on 35
      different IT products resulted in 35 vulnerabilities)
         o Impact statements for these weaknesses indicate that
               
               

              

  •   348 moderate-impact vulnerabilities represented by 20 distinct weaknesses affecting
      numerous IT products
        o Impact statements for these weaknesses indicate that
             
             
             
             

The certification recommendation points out that in spite of these deficiencies, layers of
security redundancy and enhanced security features often compensate for other less-secure
features (see appendix C, section 1, for the recommendation’s text describing these
compensating security features).

In communications with the OIG, the FDCA certification agent further explained what specific
features compensate for the numerous remaining deficiencies (see appendix C, section 2, for
the certification agent’s statement).These features can be categorized into two sets. The
certification agent stated that the first set, which consists of the following features, reduces
the likelihood that compromise to low priority applications can be escalated into an attack
against the system:

        
        
        

He further stated that the second set, consisting of the following features, makes it much
more difficult to obtain sensitive FDCA data:

        
        
        
        

  •   Our assessment of security controls, coupled with certification findings, shows only
      three of the seven security features compensating for numerous system vulnerabilities
      are in place:
        o




                                            Page 12
                              OIG FY 2009 FISMA Assessment
      o
      o

•   We concluded that four of the security features identified as compensating for
    numerous system vulnerabilities were overstated and are not fully in place.
      o
           




      o
            




      o
            




      o
            




•   FDCA is mission critical and required to support decennial field operations whose
    schedule could not be delayed; therefore, it should have been permitted to operate with
    an interim rather than full authorization because of the minimal progress in correcting
    numerous and significant vulnerabilities.
      o In the certification recommendation memo, the certification agent explained, “As
           a result of my review of the completed C&A package and given both the mission-
           criticality of the system and the progress made by the FDCA team on correcting
           identified system vulnerabilities, I recommend this system be issued an
           authorization to operate from the date of this memo through June 17, 2012.”
              Although the mission criticality of a system is relevant to the decision to
                  issue an interim authorization to operate, it should not be used to support a
                  decision to approve full authorization.
              NIST 800-37 states that an authorization to operate is issued when “the
                  authorizing official deems that the risk to agency operations, agency
                  assets, or individuals is acceptable,” whereas interim authorizations to
                  operate are issued when “risk to agency operations, agency assets, or
                  individuals is unacceptable, but there is an overarching mission necessity
                  to place the system into operation, or continue its operation.”



                                          Page 13
                                    OIG FY 2009 FISMA Assessment
            o   Progress correcting numerous and significant vulnerabilities was minimal.
                   In a certification status memo issued on April 22, 2009, the certification
                     agent informed the authorizing official that approximately 1,100 findings
                     resulted in formal POA&Ms (approximately 290 high-, 350 moderate-, and
                     480 low-risk POA&Ms). The certification agent considered this number very
                     high.
                   The June 17, 2009, certification memo explained that only 164 of these
                     POA&Ms (83 high-, 8 moderate-, and 73 low-risk POA&Ms) had been
                     corrected.1

     •    In spite of numerous and significant deficiencies, the authorizing official asserted in the
          memo granting authorization to operate that the risks to agency operations, agency
          assets, or individuals resulting from the operation of the information system were low.
             o Certification security control assessment results found that most of the security
                 controls are either not in place or are not operating effectively.
                    Only 638 out of 1,781 instances of security controls implemented on
                        applicable IT products were in place and operating effectively.
             o The certification agent informed the authorizing official that numerous
                 vulnerabilities remained.
                    Although some progress to correct outstanding POA&Ms had been made,
                        it does not justify labeling system operation risk as low.

    Recommendations

    Census should

    5.1 verify the effectiveness of security features before stating they compensate for known
        weaknesses and thereby reduce overall system risk; and
    5.2 report FDCA’s accreditation status as an interim authorization to operate and specify
        appropriate terms and conditions to remediate identified high-risk vulnerabilities, or
        ensure the security features compensating for known vulnerabilities are working
        effectively.



Census Response

Census concurred with this finding but only partially concurred with our second recommendation
to report FDCA’s accreditation status as an interim authorization to operate. In its response,
Census explained that it concurs with our recommendation based on our observation, but states
that since the Authority to Operate was granted, significant progress has been made in
addressing the vulnerabilities noted. In addition, the authorizing official is briefed weekly on the
progress of correcting the remaining vulnerabilities. As an alternative to our recommendation,
Census explained its planned corrective action: if after 90 days, the authorizing official feels that
adequate progress has not been made, the authorization to operate will be rescinded and an
interim authorization to operate will be issued.

OIG Comments

After reviewing Census’s planned action to address the recommendation, we conclude that the
action is reasonable and responsive.



1
 Following the exit conference, Census provided details showing that as of September 25, 2009, 368 out of
1172 POA&Ms (114 high-, 91 moderate-, and 163 low-risk POA&Ms) have been corrected.

                                                Page 14
                                                 OIG FY 2009 FISMA Assessment




Table 1. Deficiencies in System Security Plans
Control             NIST SP 800-53 Requirement                                       Deficiencies
                                                             Initiation Phase Plan         Certification Phase Plan




                                                                                                                      .




                                                           Page 15
                                                 OIG FY 2009 FISMA Assessment



Table 1. Deficiencies in System Security Plans
Control             NIST SP 800-53 Requirement                                       Deficiencies
                                                             Initiation Phase Plan         Certification Phase Plan




                                                                                                                      .




                                                           Page 16
                                                 OIG FY 2009 FISMA Assessment



Table 1. Deficiencies in System Security Plans
Control             NIST SP 800-53 Requirement                                       Deficiencies
                                                             Initiation Phase Plan         Certification Phase Plan




                                                           Page 17
                                                  OIG FY 2009 FISMA Assessment



Table 2. Examples of Inadequate Assessment Procedures.
Control                    NIST 800-53        Assessment Results (Full Quotation)   IT        OIG Comments
                           Requirement                                              Product




                                                            Page 18
                                                  OIG FY 2009 FISMA Assessment



Table 2. Examples of Inadequate Assessment Procedures.
Control                    NIST 800-53        Assessment Results (Full Quotation)   IT        OIG Comments
                           Requirement                                              Product




                                                            Page 19
                                                  OIG FY 2009 FISMA Assessment



Table 2. Examples of Inadequate Assessment Procedures.
Control                    NIST 800-53        Assessment Results (Full Quotation)   IT        OIG Comments
                           Requirement                                              Product




                                                            Page 20
                                                  OIG FY 2009 FISMA Assessment



Table 2. Examples of Inadequate Assessment Procedures.
Control                    NIST 800-53        Assessment Results (Full Quotation)   IT        OIG Comments
                           Requirement                                              Product




                                                            Page 21
                                                  OIG FY 2009 FISMA Assessment



Table 2. Examples of Inadequate Assessment Procedures.
Control                    NIST 800-53        Assessment Results (Full Quotation)   IT        OIG Comments
                           Requirement                                              Product




                                                            Page 22
                                                    OIG FY 2009 FISMA Assessment



Table 3. Vulnerabilities Found by OIG Assessment.
Control             IT Product      Vulnerability




                                                              Page 23
                                                    OIG FY 2009 FISMA Assessment



Table 3. Vulnerabilities Found by OIG Assessment.
Control             IT Product      Vulnerability




                                                              Page 24
                       OIG FY 2009 FISMA Assessment


Appendix A: Census’s Response to Findings




                                 Page 25
OIG FY 2009 FISMA Assessment




          Page 26
OIG FY 2009 FISMA Assessment




          Page 27
OIG FY 2009 FISMA Assessment




          Page 28
OIG FY 2009 FISMA Assessment




          Page 29
OIG FY 2009 FISMA Assessment




          Page 30
OIG FY 2009 FISMA Assessment




          Page 31
                                OIG FY 2009 FISMA Assessment


Appendix B: Objectives, Scope, and Methodology

To meet the FY 2009 Federal Information Security Management Act (FISMA) reporting
requirements, we evaluated the Census Bureau’s certification and accreditation (C&A) for the
Field Data Collection Automation (FDCA) system (CEN22).
Security C&A packages contain three elements, which form the basis of an authorizing
official’s decision to accredit a system:

    •   The system security plan describes the system, the requirements for security
        controls, and the details of how the requirements are being met. The security plan
        provides a basis for assessing security controls and also includes other documents
        such as the system risk assessment and contingency plan, per Department policy.
    •   The security assessment report presents the results of the security assessment
        and recommendations for correcting control deficiencies or mitigating identified
        vulnerabilities. This report is prepared by the certification agent.
    •   The plan of action and milestones is based on the results of the security
        assessment. It documents actions taken or planned to address remaining
        vulnerabilities in the system.

The Department’s IT Security Program Policy and Minimum Implementation Standards
requires that C&A packages contain a certification documentation package of supporting
evidence of the adequacy of the security assessment. Two important components of this
documentation are

    •   the certification test plan, which documents the scope and procedures for testing
        (assessing) the system’s ability to meet control requirements; and
    •   the certification test results, which are the raw data collected during the
        assessment.

To evaluate the C&A, we reviewed all components of the C&A package and interviewed
Census staff and contractors to clarify any apparent omissions or discrepancies in the
documentation and to gain further insight on the extent of the security assessment. We
evaluated the security plan and assessment results for applicable security controls and will
give substantial weight to the evidence that supports the rigor of the security assessment
when reporting our findings to OMB.

In addition, we performed our own assessment of a targeted selection of controls (see
appendix B-1). We conducted our assessment using a subset of procedures from National
Institute of Standards and Technology Special Publication (NIST SP) 800-53A, which we
tailored to FDCA’s specific control implementations. We did not attempt to perform a
complete assessment of each control; instead, we chose to focus on specific technical and
operational elements.

We assessed controls on key classes of IT components, choosing a targeted set of
components from each class that would allow us to determine the effectiveness of security
features that the certification agent noted provide layers of security redundancy. We
assessed configuration settings on operating systems including

We also assessed configurations on IT products including
                           We also included an examination of




                                           Page 32
                                OIG FY 2009 FISMA Assessment



Our assessment included the following activities:

    •   extraction, examination, and verification of system configurations
    •   execution of scripts and manual checklists
    •   examination of system logs
    •   review of account management procedures
    •   examination/analysis of security plan descriptions, including related policy and
        procedure documents
    •   interviews of appropriate Census personnel and contractors

Our assessment was limited in scope and should not be interpreted as the comprehensive
review that a security certification for a                system would require. It gave us
direct assurance of the status of select aspects of important system controls and provided
meaningful comparison to Census’s security certification.

We used the following review criteria:

    •   Federal Information Security Management Act of 2002
    •   U.S. Department of Commerce IT Security Program Policy and Minimum
        Implementation Standards, June 30, 2005
    •   NIST Federal Information Processing Standards
          o Publication 199, Standards for Security Categorization of Federal Information
              and Information Systems
          o Publication 200, Minimum Security Requirements for Federal Information and
              Information Systems
    •   NIST Special Publications:
          o 800-18, Guide for Developing Security Plans for Information Technology
              Systems
          o 800-37, Guide for the Security Certification and Accreditation of Federal
              Information Systems
          o 800-53, Recommended Security Controls for Federal Information Systems
          o 800-53A, Guide for Assessing the Security Controls in Federal Information
              Systems
          o 800-70, Security Configuration Checklists Program for IT Products
          o 800-115, Technical Guide to Information Security Testing and Assessment

We conducted our evaluation in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections (revised January 2005), issued by the
President’s Council on Integrity and Efficiency.




                                           Page 33
                            OIG FY 2009 FISMA Assessment



Appendix B-1: NIST SP 800-53 Security Controls Assessed by OIG

  •   AC-2 Account Management
  •   AC-6 Least Privilege
  •   AC-7 Unsuccessful Login Attempts
  •   AC-11 Session Lock
  •   AC-17 Remote Access
  •   AU-2 Auditable Events
  •   AU-4 Audit Storage Capacity
  •   AU-6 Audit Monitoring, Analysis, and Reporting
  •   AU-8 Time Stamps
  •   AU-9 Protection of Audit Information
  •   CM-6 Configuration Settings
  •   CM-7 Least Functionality
  •   IA-2 User Identification and Authentication
  •   IA-5 Authenticator Management
  •   SC-7 Boundary Protection
  •   SI-2 Flaw Remediation
  •   SI-3 Malicious Code Protection




                                        Page 34
                                 OIG FY 2009 FISMA Assessment


Appendix C: Certification Agent Statements Concerning Compensating
Security Features

Section 1: Statement describing compensating security features, taken as an excerpt from the
June 17, 2009, certification recommendation sent to the authorizing official:

      In spite of the remaining deficiencies, the generally well-designed and centrally
      managed FDCA architecture has layers of security redundancy that partially
      mitigate the potential damage possible during a security breach. In many cases,
      security mechanisms much stronger than those required by FISMA were
      leveraged to accomplish functions
                              These enhanced security features, such as

                                  often compensated for other less secure features
      deployed elsewhere in the environment.

Section 2: Statement describing compensating security features, taken as an excerpt from
July 23, 2009, e-mail communication with the OIG:

      The "enhanced security features" mentioned in paragraph 12 of the certification
      memo act as compensatory mechanisms for some of the weaker elements
      deployed in the FDCA environment by limiting the potential damage from an
      exploitation of system vulnerabilities rather than by providing directly equivalent
      security controls for the weak components. When viewed from an overall system
      risk perspective,
                   implemented on the core infrastructure components of the FDCA
      system serve to reduce the likelihood that an attempt to compromise a low
      priority application           could be escalated into an attack against the
      system as a whole.

      While the individual component may suffer a compromise of low-impact data, the
      more sensitive information related to the Census mission is much more difficult to
      obtain. Access to that type of information is controlled, in most part, by the
      server, database,            and telecom environments. Although these
      environments may not have formally completed the
      required by the bureau, they have implemented a                      that not only
      implements additional security controls not required by FISMA, but it is also
      effectively managed by a thorough and timely          process. For instance, the use
      of                                  and communication control on the telecom
      devices reduces the likelihood that an attacker could stage a
                                                   . The               which are not
      required by policy, help to ensure that only
                                                . Likewise, the use of
                                                 partially mitigates the device's portability
      and exposure to potential loss; the strength of the
      nearly eliminates an attacker's ability to penetrate the device, even with direct
      and unlimited access to the




                                             Page 35
